'

06/07/2021

21

' No.

IN THE

r ”i

*,

I.

SUPREME COURT OF THE UNITED STATES

;

1

\v

7*UL -SttRlUE

— PETITIONER

vs.

> /A '

i

i

I
:

\_J

FILED
NAY 1 9 2021

(Your Name)

/Jr

.

SUPREEM°FCTOURTLnsK

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

{/S- Coo-RT AP

Appeals J^arHfk 77ns d Sircq(t

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

^Pavl- S^ik)6
(Your Name)

/\LLattU()oT>

LS>CT

(Address)

rn p^qv loop______
(City, State, Zip Code)

wtfire'Tiszp 'PA

"RECEIVED
MAY 2 6 2021

«BS5gcB5iSSiBL

TRULINCS 14126067 - SURINE, PAUL - Unit: ALF-L-B

FROM: 14126067
TO: Abbey, Celestine
SUBJECT: Supreme Court
DATE: 07/17/2021 05:20:18 PM

QUESTIONS PRESENTED
The most important question to be resolve by the US Supreme Court is if Petitioner Paul Surine and others in his own
situation should be given a reduction of sentence according to the provisions of the First Step Act.
Both the District Court and the Appellate Court decided against petitioner using wrong standards contrary to
the word and spirit of the law enacted by Congress and the subsequent jurisprudence of most circuit courts.
Both the District Court and the Appellate Court failed to use the facts presented by petitioner that were supposed
to be used in deciding the case. The First Step Act made retroactive in section 404 a reduction of sentence about
convictions under crack laws. The 404 section should stand by itself and not used wrong facts that aren't true to deny the
petition of reduction of sentence.
The First Step Act made retroactive the new measure of drugs according to the sentencing guidelines making crack
18 to 1 as compared to cocaine. Petitioner is clearly subject to this section and his sentence should have been reduced
accordingly.
Also various circuits agree that if the maximum or average sentence of crack coccain convictions are lower than when
petitioner was sentenced because of a change in the guidelines. When petitioner was sentenced the guidelines were from 10
years to life for a conviction but today it would have been from 5 to 40 years. According to the jurisprudence of the majority
of circuits the First Step Act allows for a reduction of sentence based on that disparity of sentence. The District Court
should have considered this in looking at the petition of petitioner and failed to do it.
There4 is also jurisprudence of the majority of circuits in which an error in the quantity and amount of drugs that
was in the indictment to the one that defendant was found guilty of should be corrected using the Provisions
of the First Step Act. Petitioner was found guilty of 50 grams or mor5e of drugs when his indictment did not
gave any Wight for the drugs thus making it illegal to fin petitioner guilty for an amount not contained in the
indictment.
The District Court failed top use the factors of the First Step Act as related to age, health, recidivism probability, and
conduct in prison to decide about giving him a reduction of sentence just concentration an the "danger for the community"
standard if a very old crime.

06/07/2021

LIST OF PARTIES

nQ All parties appear in the caption of the case on the cover page.
t ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

'

06/07/2021

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

X

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix 2^__ to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[ } For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix .
to the petition and is
[ ] reported at
! or,
[ ] has been designated for publication but is riot yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition arid is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

•

06/07/2021

JURISDICTION
[ ] For cases from federal courts:
The date on .which/the United States Court of Appeals decided my case

was

i-l

1___

No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied,by the United States Court of
and a copy of the
Appeals on the following date:-----------------order1 denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix----------[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________:____ ____ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including------,
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

•

06/07/2021
TRULINCS 14126067 - SURINE, PAUL - Unit: ALF-L-B

FROM: 14126067
TO: Tucker, Rebecca
SUBJECT: Certiorari
DATE: 05/18/2021 12:07:23 PM
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Section 404 of the First Step Act (PL 115-391) Section 404 (b)
5th amendment to US Constitution (Due process clause).
US v. Easter 875 F3rd 318 (3rd Circuit 2020)
STATEMENT OF THE CASE
Case considered by US Circuit Court for the Third Circuit on a record from the US District Court for the District of Middle
Pennsylvania.
Petitioner appealed denial of his Motion for a sentencing reduction and sentencing hearing pursuant to section404 of the
First Step Act.
The appellate Court decided the case using abuse of discretion standard, deciding that the District Court used its discretion
in denying the Petition.
The US District's motion by appellant was not based on the facts about his health, age, etc. that District Court used to decide
the case, but on the grounds of section 404 of FSA that made retroactive the reduction of sentence without any other
issues that could have granted reduction. The 404 section should stand by itself and this was the question presented by
Petitioner, but both the District Court and the Appellate Court ignored to solve the issue.
REASONS FOR GRANTING THE PETITION
There has been different decisions by different Circuit courts regarding the extend of the retroactivity and to whom it should
apply. This Court should solve the differences by making a decision applicable to all Circuits and defendants looking for
redress based on 404 section of the FSA based on the due process clause of the US Constitution.

06/07/2021
TRULINCS 14126067 - SURINE, PAUL - Unit: ALF-L-B

The reduction of sentence based on procedural grounds have bee also upheld in the case of
US v Urich N Dakota District 2021) and followed by most Circuit Courts.

'

06/07/2021

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted.

'J?avc. Soy rue
Date:

O T- /? - D-oU

